No. 19-247
In the Supreme Court of the United States
__________________
CITY OF BOISE, IDAHO,
Petitioner,
v.
ROBERT MARTIN, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

__________________
BRIEF OF AMICUS CURIAE THE CITY OF
LOS ANGELES IN SUPPORT OF GRANT OF
PETITION FOR CERTIORARI
__________________

MICHAEL N. FEUER
Los Angeles City Attorney
JAMES P. CLARK
Chief Deputy City Attorney
LEELA A. KAPUR
Executive Assistant City Attorney
VALERIE L. FLORES
Managing Assistant City Attorney
Counsel of Record
BLITHE S. BOCK
Assistant City Attorney
OFFICE OF THE LOS ANGELES
CITY ATTORNEY
200 N. Main Street, 7th Fl.
Los Angeles, CA 90012
(213) 978-2205
valerie.flores@lacity.org
Counsel for Amicus Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . 11
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
I. CERTIORARI IS WARRANTED TO PROVIDE
CLARITY TO LOS ANGELES AND OTHER
CITIES ACROSS THE NATION FACING THE
CRISIS OF HOMELESSNESS . . . . . . . . . . . . . 15
II. THE BOISE OPINION IS INCONSISTENT
AND AMBIGUOUS IN WAYS THAT ARE
DETRIMENTAL TO A WELL-RUN CITY . . . . 16
A. The Boise Opinion Raises Daunting Practical
Issues in a City the Size of Los Angeles . . . . 16
B. Sweeping Language in Boise Brings
Uncertainty to the City’s Duty to Maintain
its Public Spaces . . . . . . . . . . . . . . . . . . . . . . 17
C. The Boise Opinion Leaves Unresolved the
Critical Question of Whether Los Angeles
Must Leave Available Shelter Beds
Unoccupied. . . . . . . . . . . . . . . . . . . . . . . . . . . 19
D. Tentative Language in Boise Brings
Uncertainty to the City’s Options for
Regulating When and Where in the Public
Right of Way Homeless Persons Dwell. . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

ii
TABLE OF AUTHORITIES
CASES
Jones v. City of Los Angeles,
444 F.3d 1118 (9th Cir. 2006) vacated,
505 F.3d 1006 (9th Cir. 2007). . . . . . . . . . . passim
Martin v. Boise,
920 F.3d 584 (9th Cir. 2019). . . . . . . . . . . . passim
New York v. Ferber,
458 U.S. 747 (1982). . . . . . . . . . . . . . . . . . . . . . . 16
New York v. O’Neill,
359 U.S. 1 (1959). . . . . . . . . . . . . . . . . . . . . . . . . 16
Schneider v. State,
308 U.S. 147 (1939). . . . . . . . . . . . . . . . . . . . . . . 18
CODES
Los Angeles Municipal Code Sections
12.22 A.25-31. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Los Angeles Municipal Code Section 56.11. . . . . . . 14
Los Angeles Municipal Code Section 85.02. . . . . . . 14
Los Angeles Municipal Code Sections
187.00, et. seq. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
OTHER AUTHORITIES
2019 Greater Los Angeles Homeless Count - City Of
Los
Angeles
(July
29,
2019),
https://www.lahsa.org/documents?id=3421-201
9-greater-losangeles-homeless-count-city-of-los
-angeles.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

iii
2019 Point-in-Time snapshot, https://www.latimes.
com/local/lanow/lame-ln-los-angeles-homelesscount-20190122-story.html. . . . . . . . . . . . . . . . . 12
Freddie Mac Multifamily, Rental Burden by Metro,
(April 2019), https://mf.freddiemac.com/docs/
rental_burden_by_metro.pdf . . . . . . . . . . . . . . . . 7
Homelessness: How We Got Here & How L.A. Is
Responding,https://www.lamayor.org/Homeles
snessCausesAndResponses . . . . . . . . . . . . . . . 8, 9
http://homeless.lacounty.gov/. . . . . . . . . . . . . . . . . . . 9
http://worldpopulationreview.com/us-cities/newportri-population/. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Los Angeles Almanac, City of Los Angeles,
http:/www.laalmanac.com/LA/index.php. . . . . . . 5
Los Angeles Homeless Services Authority, 2019
Greater Los Angeles Homeless Count Presentation
(Available at https://www.lahsa.org /documents
?id+3421-2019-greater-los-angeles-homeless-co
unt-city-of-los-angeles.pdf) . . . . . . . . . . . . . . . . 1, 8
Los Angeles Homeless Services Authority, 2019
Greater Los Angeles Homeless Count - Total
Point-In-Time Homeless Population by
Geographic Areas. (Available at https://www.lahsa.
org/documents?id+3421-2019-greater-los-angel
es-homeless-count-city-of-los-angeles.pdf). . . . . . 2
N.Y.U. Furman Center, 2017 National Rental
Housing Landscape, https://furmancenter.org
/files/NYU FurmanCenter_2017_National_
Rental_Housing_Landscape_04OCT2017.pdf . . . 7

iv
Benjamin Oreskes, For 2019 Homeless Count,
Thousands of Volunteers Are Set to Deploy
Across L.A., L.A. Times, Jan. 22, 2019, available
at https://www.latimes.com/local/lanow/la-me-lnlos-angeles-homeless-count-20190122-story.html
........................................ 6
Safe LA, Domestic Abuse Response Team (DART),
http://www.safela.org/about/dart/ . . . . . . . . . . . . 8
R. Stern and E. Gressman, Supreme Court Practice,
(7th Edition 1993) . . . . . . . . . . . . . . . . . . . . . 15, 16
Substance Abuse & Mental Health Servs. Admin.,
More Than a Number: Point-in-Time Counts Are
Crucial Data, https://www.samhsa.gov/homeless
ness -programs-resources/hpr-resources/pointtime-counts-are-crucial-data . . . . . . . . . . . . . . . . 5
U.S. Census Bureau, Quick Facts,
https://www.census.gov/quickfacts/fact/table/lo
sangelescitycalifornia/RHI125218 . . . . . . . . . . . . 6
U.S. Dep’t of Hous. & Urban Dev., The 2018 Annual
Homeless Assessment Report (AHAR) to Congress
(Dec. 2018) at 1. (Available at https://files.hudex
change.info/resources/documents/2018-AHARPart-1.pdf) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
INTEREST OF AMICUS CURIAE1
Amidst a nationwide homeless crisis, the City of Los
Angeles seeks clarity on the extent of its authority with
respect to the conduct of individuals who dwell on City
streets and, for this crucial purpose, submits this brief
in support of a grant of certiorari in Martin v. City of
Boise, 920 F.3d 584 (9th Cir. 2019). The City agrees
with a central tenet of Boise – that no individual should
be susceptible to punishment for sleeping on the
sidewalk at night if no alternative shelter is available.
But Boise’s rationale sweeps too broadly, and the
internally inconsistent Opinion is unclear. By raising
more issues than it resolves, the decision leaves
jurisdictions like Los Angeles without the certainty
necessary to balance intensely competing interests
without risking costly and time-consuming litigation.
No one should be relegated to sleeping on the
street. And yet, in 2018, 553,000 individuals were
homeless in the United States,2 with 36,300 of those
homeless people residing in the City of Los Angeles.3
1

No party nor counsel for a party authored this brief in whole or
in part, and no person or entity, other than amicus curiae or their
counsel, made any monetary contribution to fund the preparation
or submission of this brief. All parties have filed blanket consents
to the filing of amicus briefs with the Clerk.
2

U.S. Dep’t of Hous. & Urban Dev., The 2018 Annual Homeless
Assessment Report (AHAR) to Congress (Dec. 2018) at 1. (Available
at https://files.hudexchange.info/resources/documents/2018-AHAR
-Part-1.pdf)
3

Los Angeles Homeless Services Authority, 2019 Greater Los
Angeles Homeless Count Presentation at 5.
(Available at
https://www.lahsa.org/documents?id+3421-2019-greater-los-ange
les-homeless-count-city-of-los-angeles.pdf)

2
Every night in Los Angeles, almost nine thousand
homeless men, women, and children receive temporary
shelter from a patchwork made up of dozens of private
and government funded shelters and hotels.4 Even so,
the crisis overwhelms: more than 27,000 of the City’s
36,300 total homeless population are unsheltered,5 and
dwell in the public right of way in Los Angeles – the
equivalent of the entire population of the City of
Newport, Rhode Island.6
The overarching goal of City leaders on the front
lines in combating the homeless crisis is to create more
temporary and permanent supportive shelter beds, and
the City is spending an unprecedented amount of
money to construct temporary and permanent shelters.
An acute, statewide affordable housing shortage
intensifies the City’s challenges. The City is assessing
fees to assist with affordable housing, and providing
incentives to encourage private sector affordable
housing development. But only with time and
additional resources will enough permanent supportive
housing units and temporary shelter beds be created to
accommodate the 27,000 City residents who are
unsheltered, and sufficient affordable housing be
erected to prevent others from falling into
homelessness. The City also is making strides in
4

Los Angeles Homeless Services Authority, 2019 Greater Los
Angeles Homeless Count - Total Point-In-Time Homeless
Population by Geographic Areas. (Available at https://www.lahsa.
org/documents?id+3421-2019-greater-los-angeles-homeless-coun
t-city-of-los-angeles.pdf).
5

Id.

6

http://worldpopulationreview.com/us-cities/newport-ri-population/.

3
addressing other systemic causes of homelessness,
including raising City residents out of poverty and
targeting domestic violence, which is driving many
women into homelessness. These efforts show some
promise, but much more remains to be done.
In the meantime, the City must contend with
balancing the rights and legitimate needs of a large
homeless population with the rights and legitimate
needs of local residents and businesses, all of whom
share a single finite resource: the public right of way.
Encampments with adult occupants line, and often
impede, the routes that the City’s children travel to
and from their schools. Businesses must grapple with
encampments filling the sidewalks in front of their
establishments. The City struggles to persuade
neighbors to overcome their fears that a new homeless
shelter nearby will become a magnet for increased
encampments.
The City requires clear and practical guidelines on
the proper scope of its authority to strike the best
possible balance in our shared public spaces. Boise does
not give that requisite guidance. Instead, it creates
ambiguity and uncertainty around a question that can
tolerate neither: what are the constitutional limits to
the manner in which a City may enforce its rules
regarding conduct on its public sidewalks?
Boise is internally inconsistent, which makes it, by
definition, unclear. On the one hand, Boise resurrects,
and cites with approval, expansive language from the
vacated decision in Jones v. City of Los Angeles, 444
F.3d 1118 (9th Cir. 2006) vacated, 505 F.3d 1006 (9th
Cir. 2007), suggesting that the City may not enforce a

4
ban on sleeping in the public right of way at all unless
and until a shelter bed exists for every homeless person
in the City, a requirement – at least for the City of
Boise – that was to be measured and met on a nightly
basis.
On the other hand, Boise purports to be a “narrow”
ruling, which only constrains a City from enforcing
rules governing sleeping, lying or sitting on its
sidewalks on a person-by-person basis, when that
individual has no available alternative. Boise suggests
that a City “might” be able to regulate where and when
homeless individuals dwell in its public spaces, but
articulates no standard against which to measure such
hypothetical regulation, intensifying the uncertainties
the decision creates.
Boise creates further, unacceptable ambiguity
because its rationale sweeps so broadly, precipitating
additional unanswered questions critical to a wellfunctioning City. Boise’s broad rationale impacts the
ability of Los Angeles to regulate not only a homeless
person’s need to sleep outdoors, but potentially other
aspects of a person’s ability “to live out the ‘universal
and unavoidable consequences of being human,’”
providing no insight as to what those consequences
might include. Boise, 920 F.3d at 617 n.8. Humans
need to eat. Must the City allow open flame cooking in
public? All humans must relieve themselves. Must the
City suspend enforcement of its ban on public
defecation in the absence of a certain number of public
toilets? How many toilets are required?
Both the City and its homeless population are
harmed by this lack of clarity.
An incorrect

5
interpretation of Boise has constitutional ramifications
that create unacceptable risk. Little or no enforcement
leaves the City next to lawless; enforcement in the
wake of Boise could leave the City vulnerable to
litigation, which dissipates time and resources better
directed to meaningful solutions.
Certiorari is
warranted.
BACKGROUND
Los Angeles has a vast footprint, encompassing 468
square miles, 60 miles from its northern end to its
southern terminus.7 Although most of the homeless
population historically has resided in the downtownadjacent area known as “Skid Row,” homeless
encampments now appear in every one of the City’s
fifteen Council Districts.
The sheer size of Los Angeles, coupled with the
number of homeless individuals living in the City,
makes counting unhoused people a herculean task. As
a condition of federal funding, the United States
Department of Housing and Urban Development
(HUD) requires all regional bodies that coordinate
housing and services funding for homeless persons to
conduct a count called the Point-in-Time “snapshot.”8
This count must be conducted annually for sheltered
7

Los Angeles Almanac, City of Los Angeles, http:/www.laalmanac
.com/LA/index.php (last visited Sept. 24, 2019).

8

Substance Abuse & Mental Health Servs. Admin., More Than a
Number: Point-in-Time Counts Are Crucial Data,
https://www.samhsa.gov/homelessness-programs-resources/hprresources/point-time-counts-are-crucial-data (last visited Sept. 24,
2019).

6
homeless persons, and every two years for unsheltered
homeless persons. In 2019, conducting the Point-inTime count for the Los Angeles area required the
services of 7,000 volunteers, and took three days.9
The root causes of homelessness are varied and
complex, making solutions difficult to achieve. Poverty
is the obvious and most significant reason for
homelessness in Los Angeles, where one in five
residents lives below the poverty line.10 Los Angeles
continues to see poverty-created homelessness even
though it was one of the first cities in the United States
to enact a local minimum wage ordinance, raising
wages in Los Angeles to a minimum of $15 per hour.11
The Los Angeles affordable housing shortage – and
the attendant high cost of housing – constitutes a direct
cause of homelessness. The City of Los Angeles enjoys
temperate weather and beach-lined shores. Los
Angeles is home to the motion picture and television
industries, among other industries, as well as 30
colleges and universities. Unsurprisingly, Los Angeles
9

Benjamin Oreskes, For 2019 Homeless Count, Thousands of
Volunteers Are Set to Deploy Across L.A., L.A. Times, Jan. 22, 2019,
available at https://www.latimes.com/local/lanow/la-me-ln-los-ang
eles-homeless-count-20190122-story.html (last visited Sept. 24,
2019).

10

See U.S. Census Bureau, Quick Facts, https://www.census.gov/
quickfacts/fact/table/losangelescitycalifornia/RHI125218
11

See, Homelessness: How We Got Here & How L.A. Is Responding,
https://www.lamayor.org/HomelessnessCausesAndResponses (last
visited Sept. 24, 2019); and see Los Angeles Municipal Code
§§ 187.00, et. seq., available at https://clkrep.lacity.org › onlinedocs
› 14-1371_ORD_184320_6-2-16

7
has one of the most expensive rental markets in the
nation in terms of rental rates and rental burden,
meaning the percentage of total income Los Angeles
residents devote to rent.12 To increase the supply of
affordable housing units, the City of Los Angeles
requires developers to pay an affordable housing
linkage fee,13 and gives density bonuses to
developments that include affordable housing units.14
Beyond household economics, the effects of the
federal government’s decision in 1981 to end its role in
providing services to the mentally ill are directly
reflected in the Los Angeles homeless population. A

12

The Los Angeles metropolitan area ranked fifth in median rent
cost, and second in rent-burden among 53 US metropolitan areas.
See, N.Y.U. Furman Center, 2017 National Rental Housing
Landscape, https://furmancenter.org/files/NYU FurmanCenter_20
17_National_Rental_Housing_Landscape_04OCT2017.pdf, pp. 6
and 10. See also, Freddie Mac Multifamily, Rental Burden by
Metro, (April 2019), https://mf.freddiemac.com/docs/rental_burden
_by_metro.pdf. (Los Angeles metropolitan area ranked third in
most “rent-burdened” metropolitan areas).
13

The Affordable Housing Linkage Fee is a payment assessed on
new construction to mitigate the impact of development on
affordable housing; funds raised from the fee are set aside and
used to construct new – and rehabilitate existing – affordable
housing units.
14

Los Angeles Municipal Code Sections 12.22 A.25-31. Available
at http://library.amlegal.com/nxt/gateway.dll/California/lamc/muni
cipalcode/chapterigeneralprovisionsandzoning/article2specificpla
nning-zoningcomprehen?f=templates$fn=default.htm$3.0
$vid=amlegal:losangeles_ca_mc$anc=JD_12.22.

8
large number – 27 percent – of the City’s homeless
residents suffers from serious mental illnesses.15
The lack of federal resources for veterans also
contributes to the homeless population in Los Angeles.
More than two thousand of the City’s homeless
residents are veterans.16
A broad spectrum of other factors contributes to the
large homeless population in Los Angeles. Countywide,
56 percent of homeless women are victims of domestic
violence.17 In Skid Row, the percentage skyrockets to
more that 90 percent.18 The City prioritizes assistance
to victims of domestic violence by implementing the
Domestic Abuse Response Teams (DART) program,
which trains and pairs police officers with services
providers and victim advocates. A DART team is
located in each of the City’s 21 Los Angeles Police
Department divisions.19
Fifteen percent of the City’s homeless individuals
suffer from substance abuse issues.20 The criminal
15

2019 Greater Los Angeles Homeless Count - City Of Los Angeles
(July 29, 2019), https://www.lahsa.org/documents?id=3421-2019greater-losangeles-homeless-count-city-of-los-angeles.pdf.
16

Id.

17

Homelessness, supra, https://www.lamayor.org/HomelessnessCau
sesAndResponses.

18

Id.

19

Safe LA, Domestic Abuse Response Team (DART),
http://www.safela.org/about/dart/ (last visited Sept. 24, 2019).
20

L.A. Homeless Servs. Auth., 2019 Greater Los Angeles Homeless
Count - City of Los Angeles, https://www.lahsa.org/documents?id

9
justice system has an impact as well: approximately 50
percent of Los Angeles homeless residents have a
history of incarceration, negatively impacting their job
prospects.21
Elected leaders and taxpayers in Los Angeles have
taken decisive action, dramatically infusing resources
to grapple with the homeless crisis. In 2016, City
leaders sponsored, and City voters overwhelmingly
enacted, Proposition HHH.
Proposition HHH
authorized the issuance of 1.2 billion dollars in bonds
to finance permanent supportive housing for the City’s
homeless residents. Projects to create these supportive
housing units with HHH funds are already under way.
Los Angeles County voters added additional
resources to address homelessness when they passed
Measure H. Measure H imposed a County-wide sales
tax to raise 355 million dollars annually for ten years
to fund homeless outreach, emergency shelters, rapid
rehousing, and permanent supportive housing.22 In
addition to Proposition HHH and Measure H funding,
the 2019-20 Los Angeles City budget includes more
than 460 million dollars to address homelessness.23

=3421- 2019-greater-los-angeles-homeless-count-city-of-los-angeles
.pdf (last visited Sept. 24, 2019).
21

Homelessness: How We Got Here & How L.A. is Responding,
https://www.lamayor.org/HomelessnessCausesAndResponses (last
visited Sept. 24, 2019).
22
23

http://homeless.lacounty.gov (last visited Sept. 24, 2019).

https://www.lamayor.org/HomelessnessCausesAndResponses
(last visited Sept. 24, 2019).

10
This allocation of considerable resources is
necessary but – certainly in the immediate term –
insufficient to alleviate the current homeless crisis.
The City cannot build housing or shelter for 27,000
individuals overnight. As a result, thousands of
unsheltered Angelenos have no choice but to dwell in
public spaces.
More than a decade ago, like Boise, the City was
sued for enforcing an ordinance that banned sitting,
lying, or sleeping in the public right of way.24 The
Ninth Circuit, in Jones v. City of Los Angeles, enjoined
the City from enforcing its public dwelling ban, using
sweeping language that permitted of no exceptions.
The City settled the Jones case in favor of a negotiated
enforcement plan, which limited public dwelling to
overnight hours, and banned dwelling in a few
locations, like doorways, driveways, and loading docks.
As a result of the Jones litigation, Los Angeles has
experienced, first-hand, 11 years of grappling with the
delicate balance required when public sidewalks serve
two essentially incompatible functions. The sidewalks
are home to thousands of unsheltered residents (and
their personal belongings), while at the same time
serving as the access way for wheelchair-bound
pedestrians who need passable sidewalks, children who
need safe passage to school, and business owners who
require accessible store fronts. In this context, the
Ninth Circuit’s uncertain and internally inconsistent
Boise decision hampers the City’s ability to achieve the
24

Jones v. City of Los Angeles, 444 F.3d 1118 (9th Cir.2006),
vacated, 505 F.3d 1006 (9th Cir. 2007).

11
appropriate balance required to keep public spaces safe
and accessible to all.
SUMMARY OF ARGUMENT
The homeless crisis in Los Angeles is just that – a
crisis. First and foremost, our vulnerable homeless
population is affected. But the crisis also affects every
Angeleno, each of whom deserves, among other things,
passable sidewalks. The lack of clarity of the Boise
decision, combined with its sweeping rationale, makes
more difficult the efforts of Los Angeles to balance the
needs of its homeless residents with the needs of
everyone who uses our public spaces.
Clarity: The Boise Opinion creates no less than four
areas of uncertainty for the City.
The first ambiguity results from Boise’s fullthroated endorsement of the broad, sweeping language
of Jones v. City of Los Angeles. This language suggests
that, until every homeless person in Los Angeles has a
bed, no enforcement action against any individual
homeless person is permissible, even if the City has a
bed for that homeless person. Boise, 920 F.3d at 617.
Must the City of Los Angeles create 27,000 shelter beds
before taking enforcement action against a single
unsheltered individual who refuses an available shelter
bed in one of the City’s regional shelters, just because
shelters at the opposite end of the City are full?
Phrased differently, must shelter beds go empty
because one is not available for every homeless person
in Los Angeles? The body of the Boise decision fails to
answer that question. A footnote purports to do so,

12
but, as discussed below, that footnote only creates
inconsistency within the Opinion.
The second area of uncertainty is practical: Is Los
Angeles required, like the City of Boise, to conduct a
nightly count of its homeless before any enforcement
can occur? As was observed by the dissenters from the
Ninth Circuit’s denial of en banc rehearing in Boise, the
Boise rule is impossible to administer. In a city the
size of Boise (with 125 of its 867 homeless population
unsheltered) the task is difficult. Boise, 920 F.3d at
604. The challenge is exponentially greater in a city
the size of Los Angeles (with 27,000 of its 36,300
homeless population unsheltered). Based upon the
efforts required for the Point-in-Time Snapshot, Los
Angeles would need 21,000 volunteers in service yearround if it were to conduct a nightly count of its
homeless residents.25 Even if that were possible, each
night the City would have to compare the count of
homeless individuals with the number of available
shelter beds, by contacting scores of homeless shelters
throughout the jurisdiction.
A third unresolved question is created by Boise’s
sweeping rationale which, by its logical extension,
applies to more than simply the act of sleeping in
public. Arguably, Boise constrains Los Angeles from
regulating a person’s ability “to live out the ‘universal
and unavoidable consequences of being human’” in
public places if the person lacks a private place to live.
Boise, 920 F.3d at 617 n.8. Boise does not elaborate on
25

The 2019 Point-in-Time snapshot required 7000 volunteers and
three days to complete. https://latimes.com/local/lanow/lame-ln-los-ang
eles-homeless-count-20190122-story.html.

13
the specific nature of what “consequences of being
human” Los Angeles can regulate, and which can it not.
Like other cities, to maintain safe and sanitary
conditions, Los Angeles regulates its public spaces.
Conduct banned in the public right of way includes, for
example, urination, defecation, and storage and use of
flammable substances for cooking. Any doubt as to the
ability of Los Angeles to enforce these and other rules
makes our public spaces less safe and sanitary.
The fourth area of uncertainty relates to Boise’s
dismissive discussion of the City’s regulatory powers,
in a few lines tucked away in a footnote couched in
equivocal language. Boise articulates no standard by
which Los Angeles is to determine whether a given
regulation is, in fact, constitutional. Neither Los
Angeles nor any other municipality should be forced to
roll the constitutional dice to find out in the first
instance what does or does not pass muster, at the peril
of a sweeping injunction.
Balance. Los Angeles is home to almost four million
residents.26 Sidewalks where many of our homeless
dwell also serve as critical infrastructure for
pedestrians, including disabled pedestrians, children
traveling to and from school, tourists visiting the City’s
many attractions, and customers and employees of the
City’s numerous and various business establishments.
The sidewalks belong in equal measure to everyone.
During the eleven years following the Jones settlement,
Los Angeles has refrained from nighttime enforcement
26

https://www.census.gov/quckfacts/losangelescitycalifornia
(population estimate as of July 1, 2018 is 3,990,456) (last visited
Sept. 24, 2019).

14
of its rules against sleeping on public sidewalks.
Conditions on Los Angeles sidewalks have deteriorated.
Now, in the wake of Boise, Los Angeles has suspended
all enforcement of these rules except in critical areas
like loading docks, doorways and driveways, and where
necessary to ensure compliance with the Americans
with Disabilities Act. The City’s residents deserve to
know that if City officials set reasonable limitations on
when and where public dwelling occurs, those
regulations will be defensible, even against the threat
of litigation.
ARGUMENT
The priority for the City of Los Angeles is to find
shelter for its homeless population, and Los Angeles is
urgently constructing many shelters throughout the
City. Until substantially more are built, however, Los
Angeles recognizes that many of its homeless residents
will sleep outside. Even before the Ninth Circuit’s
decision in Boise, Los Angeles had taken many steps to
decriminalize conduct associated with being homeless27
27

The City passed an ordinance decriminalizing vehicle dwelling
on City streets except during the day in residential areas, and
twenty-four hours a day near schools, daycare centers and parks.
L.A.M.C., § 85.02 (Jul. 2019). Available at
http://library.amlegal.com/nxt/gateway.dll/California/lamc/muni
cipalcode/chapterviiitraffic?f=templates$fn=default.htm$3.0$vid
=amlegal:losangeles_ca_mc$anc=JD_85.02.
The City also
decriminalized a homeless person's storage of up to sixty gallons
of personal property in the public right of way. L.A.M.C., § 56.11,
subdivs. (2)(c) & (10) (Jul. 2019). Available at
http://library.amlegal.com/nxt/gateway.dll/California/lamc/muni
cipalcode/chaptervpublcisafetyandprotection/article6publichazar
ds?f=templates$fn=defaulthtm$3.0$vid=amlegal:losangeles_ca_
mc$anc=JD_56.11 (last visited September 24, 2019).

15
and, pursuant to the Jones case settlement, ceased to
enforce its ban on sleeping in public at night, except
near doorways, driveways and loading docks.
Post Boise, the City needs clarity regarding its
ability to enact and enforce regulations to balance the
use of the public space by the homeless person with no
other place to live and others whose interests may not
always be easily compatible with those of the homeless
person, like: the child who walks to school through an
encampment full of adults, the local business that
operates behind an unbroken line of encampments, the
disabled resident whose wheelchair is blocked by an
encampment. Los Angeles urgently needs clarity to
uphold the rights of its homeless population while also
fulfilling its mandate as the steward of public spaces to
protect them for everyone.
I. CERTIORARI IS WARRANTED TO PROVIDE
CLARITY TO LOS ANGELES AND OTHER
CITIES ACROSS THE NATION FACING THE
CRISIS OF HOMELESSNESS
Los Angeles agrees with a broad premise underlying
the Boise decision: when a person has no place to sleep
at night, sleeping at night in public should not be a
crime. Boise, 920 F.3d at 617.
Given the nationwide scope of the homeless crisis,
however, clarity on the specifics is needed urgently.
Local governments across the country have similar
ordinances requiring public space to remain clear.
Certiorari is warranted to ensure consistency in the
laws within those jurisdictions. R. Stern and E.
Gressman, Supreme Court Practice, §§4.12, 4.13 (7th

16
Edition 1993), citing New York v. Ferber, 458 U.S. 747,
749, n.2 (1982) and New York v. O’Neill, 359 U.S. 1, 3
(1959) (where the Court stated it granted certiorari
“inasmuch as this holding brings into question the
constitutionality of a statute now in force in forty-two
States and the Commonwealth of Puerto Rico”).
II. THE BOISE OPINION IS INCONSISTENT
AND AMBIGUOUS IN WAYS THAT ARE
DETRIMENTAL TO A WELL-RUN CITY.
A. The Boise Opinion Raises Daunting
Practical Issues in a City the Size of Los
Angeles.
While Boise describes its holding as “narrow,” it
cites with approval the broad and sweeping language
of the vacated Jones decision, which held “so long as
there is a greater number of homeless individuals in [a
jurisdiction] than the number of individual beds [in
shelters], the jurisdiction cannot prosecute homeless
individuals” for public habitation. Boise, 920 F.3d at
617. The message conveyed by this broad language is
unworkable in practice. The six Ninth Circuit judges
dissenting from the denial of en banc review of Boise
agreed, describing the holding as leaving a city with a
“Hobson’s choice,” either to “undertake an
overwhelming financial responsibility to provide
housing for or count the number of homeless
individuals within their jurisdiction every night, or
abandon enforcement of a host of laws regulating
public health and safety.” 920 F.3d at 594. Does Boise
mean that such a count must now be conducted
nightly? Weekly? How precise must that count be?

17
Counting the available shelter beds is also
monumentally difficult. In Los Angeles, like Boise,
shelters are not owned or operated by the City; thus,
“the City is wholly reliant on the shelters to self-report
when they are full.” Boise, 920 F.3d at 609. Does
Boise mean that Los Angeles must somehow require
these independent shelters to provide a nightly count
of available beds? Does Los Angeles step on
constitutional toes if those shelters’ counts are
inaccurate? And as Boise points out in its Petition,
alternative shelter, like the home of a friend or a
relative, might be available to an individual, but would
never show up in a count of shelter beds. Pet. 33.
While this broad holding is unworkable even in a
city like Boise, it is virtually impossible in a city like
Los Angeles. Boise’s homeless population totals 867,
125 of whom are unsheltered on any given night. Id. at
604. Los Angeles’ homeless population totals 36,300,
more than 27,000 of whom are unsheltered on any
given night. Boise has three homeless shelters; Los
Angeles has dozens. Even if we posit that a city like
Boise could comply with the Boise counting
requirement, a city like Los Angeles – or San
Francisco, San Diego, Phoenix, and a host of others –
simply cannot.
B. Sweeping Language in Boise Brings
Uncertainty to the City’s Duty to Maintain
its Public Spaces.
Boise states that a local government cannot prohibit
any conduct that arises from a condition a person is
“powerless to change,” or that is an “unavoidable”
result of being human. Id. at 617. At a practical level,

18
this sweeping language simply is unworkable for local
governments.
A key mandate for every municipality is to keep its
public space safe and accessible to all of its residents.
Schneider v. State, 308 U.S. 147, 160-161 (1939).
As this Court repeatedly has recognized, a
municipality’s duty is to keep public property “open
and available for movement of people and property” –
the “primary purpose for which the streets are
dedicated” – while at the same time respecting “the
constitutional liberty of one rightfully upon the street.”
Schneider, supra, 308 U.S. at 160-161.
Boise
essentially ignores this mandate by giving it merely a
passing reference – in limited and ambiguous language
– and only in a footnote. As the Boise dissent observes,
and the Petition filed by the City of Boise points out,
this “unavoidable consequences” language could be
stretched to mean that public urination or defecation
cannot be prohibited. Boise, 920 F3d at 596; Petition 4.
A broad array of other activities are “unavoidable
consequences” of being human. Does Boise’s language
mean that a local government must allow a homeless
individual to store food in the public right of way and
cook with an open flame? What about urination and
defecation in public? Where is a city to draw the line?

19
C. The Boise Opinion Leaves Unresolved the
Critical Question of Whether Los Angeles
Must Leave Available Shelter Beds
Unoccupied.
The Boise court describes its holding as “narrow,”
and footnote 8 attempts to underscore that description.
Footnote 8 states in pertinent part: “Naturally, our
holding does not cover individuals who do have access
to adequate temporary shelter…but who choose not to
use it. Boise, 920 F.3d at 617 n.8.
Notwithstanding this language, the Opinion
actually leaves uncertain the answer to the practical
question faced every night in Los Angeles: What are
the City’s options with regard to a specific homeless
individual for whom a shelter bed is available, if the
bed is offered and the person refuses to use it?
That is because the footnote is at odds with the
Opinion’s citation, with approval, of the sweeping
language of the Jones case, which held that “so long as
there is a greater number of homeless individuals in [a
jurisdiction] than the number of available beds [in
shelters,” the jurisdiction cannot prosecute homeless
individuals for dwelling in public, language which is
cited twice in the Boise Opinion. Boise, 920 F.3d at
604, 617. Boise’s citation of Jones raises the specter
that Los Angeles can take no enforcement action until
it builds another 27,000 shelter beds. Nothing in
footnote 8 addresses this seeming contradiction head
on.
Thus, despite Boise’s stated concern with the plight
of homeless individuals and the purported “narrow”

20
nature of the holding, ironically the Opinion could
make more difficult the efforts of Los Angeles to have
its homeless residents occupy the shelter beds that are
available, even during this current crisis. Los Angeles
lacks guidance as to whether it can inform a homeless
person, “It’s illegal to sleep here, sir, when we have a
bed for you, and we do.” Or must it instead allow the
person to continue sleeping on the sidewalk – leaving
the shelter bed unused?
D. Tentative Language in Boise Brings
Uncertainty to the City’s Options for
Regulating When and Where in the Public
Right of Way Homeless Persons Dwell.
Footnote 8 in the Boise Opinion also appears to
acknowledge the regulatory power of a city like Los
Angeles to create reasonable rules about when and
exactly where public habitation occurs. Specifically,
footnote 8 provides:
“Nor do we suggest that a jurisdiction with
insufficient shelter can never criminalize the act of
sleeping outside. Even where shelter is unavailable, an
ordinance prohibiting sitting, lying or sleeping outside
at particular times or in particular locations might well
be constitutionally permissible. [Citing Jones.] So, too,
might an ordinance barring the obstruction of public
rights of way or the erection of certain structures.”
Boise, 920 F.3d at 617.
While footnote 8 seems to give a nod to a local
government’s ability to enforce its laws under certain
circumstances, its conjectural language provides no
real world guidance. Boise states only that a certain

21
kind of ordinance “might well be constitutionally
permissible.” But Los Angeles needs to know: is it, in
fact, constitutionally permissible, for example, for a city
to bar homeless encampments adjacent to sensitive
sites like a school or a newly constructed homeless
shelter? “Might well be” tells us little – and simply
invites further constitutional litigation.
The question is not hypothetical. Selecting a site for
– and opening – a new homeless shelter often proves
difficult in Los Angeles. Neighbors and local business
owners have sometimes resisted, expressing concern
that a new homeless shelter site will become a draw or
magnet for encampments on the sidewalks in the area
surrounding the shelter, causing the sidewalks to
become impassable.
It is likely Los Angeles could more easily place
shelters if it were to prohibit public dwelling on the
sidewalks adjacent to newly-opened homeless
shelters.28 Were Los Angeles to take the invitation
advanced in footnote 8 of the Boise Opinion and do just
that, footnote 8 leaves Los Angeles open to the threat,
delay and expense of litigation. Ironically, therefore,
despite the Ninth Circuit’s stated concern with
homeless people living in the public space, Boise may
make it more likely that too many of our homeless
population will remain there.
CONCLUSION
The City of Los Angeles strives to achieve a delicate
balance on its City streets. But the Boise decision
28

This limitation also may reduce the temptation of any shelter
resident to fall back into life on the street.

22
undermines the City’s ability to attain that balance.
The Opinion’s lack of clarity could place the City at risk
of litigation at a time when the homeless crisis
demands urgent, clear, practical, solution-oriented
approaches from local government–approaches that,
among many goals, assure that public sidewalks are
safe and accessible for everyone, that homeless people
accept available shelter and that desperately-needed
shelters are more prevalent. For these reasons, the
City of Los Angeles urges this Court to grant
Certiorari.
Respectfully submitted,
MICHAEL N. FEUER
Los Angeles City Attorney
JAMES P. CLARK
Chief Deputy City Attorney
LEELA A. KAPUR
Executive Assistant City Attorney
VALERIE L. FLORES
Managing Assistant City Attorney
Counsel of Record
BLITHE S. BOCK
Assistant City Attorney
OFFICE OF THE LOS ANGELES CITY ATTORNEY
200 N. Main Street, 7th Fl.
Los Angeles, CA 90012
(213) 978-2205
valerie.flores@lacity.org
Counsel for Amicus Curiae
September 25, 2019

